22
APPENDIX TABLE OF CONTENTS

PAGE

Appendix A - Appellate Denial of Rehearing

la

Appendix B - Appellate Ruling in CA 18-2203

3a

Appendix L - District Court Ruling 5/11/18

6a

Appendix C - Appellate Ruling in CA 17-1991

7a

Appendix D - District Court Final Decision

14a

Appendix E - February 18, 2016 Memo Order

37a

Appendix F - March 3rd Order

41a

Appendix G - Docket Sheet Selection

43a

Appendix H - Roach v. BM Motoring

44a

Appendix I - Respondents Contract of Adhesion

50a

Appendix J - Footnote 1 of Herring v. US

54a

Appendix K - Respondents Admissions

57a

-laAPPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2203

SARA ANN EDMONDSON,
Appellant
V.
LILLISTON FORD INC., et al.
(D.C. Civ No. 1-13-CV-07704)
SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. MCKEE, AMBRO,
CHAGARES, JORDAN,
HARDIMAN, GREENWAY, JR., SHWARTZ,
KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, SCIRICA*, and NYGAARD*,
Circuit Judges
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
*As to panel rehearing only.

-2aconcurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
/s/Anthonv J.Scirica
Circuit Judge
Dated: July 18, 2019
CLW/PDB/cc: Ms. Sara Ann Edmondson

>•*

-3aAPPENDIX B
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2203
SARA ANN EDMONDSON,
Appellant
V.
LILLISTON FORD INC;
JANE AND JOHN DOE 1-10, individually and as
owners, officers, Directors, founders, managers,
agents, servants, employees, representatives and /or
independent contractors of LILLISTON FORD, INC.;
XYZ CORPORATIONS 1- 10
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 13-cv-07704)
District Judge: Honorable Renee M. Bumb
Submitted Pursuant to Third Circuit LAR 34.1(a)
April 26, 2019
Before: KRAUSE, SCIRICA and NYGAARD, Circuit
Judges
(Opinion filed: May 15, 2019)
OPINION*
*This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.

-4aPER CURIAM
Sara Ann Edmondson appeals from the
District Court’s order denying her motion for relief
from judgment pursuant to Fed. R. Civ. P. 60(b)(3).
For the reasons that follow, we will affirm
This is the fourth appeal arising out of an
action brought by Edmondson alleging state law
claims of fraud and misrepresentation, as well as
claims under the Federal Odometer Act and the
Magnuson-Moss Warranty Act. The claims stem
from alleged wrongs related to her purchase of a used
car from Appellee Lilliston Ford, Inc. (“Lilliston”).
After protracted proceedings, Edmondson filed a
motion to compel arbitration under the Federal
Arbitration Act (FAA). The District Court denied the
motion as premature, and we reversed. See
Edmondson v. Lilliston Ford. Inc.. 593 F. App’x 108
(3d Cir. 2014). On remand, after the motion to
compel arbitration was granted, the parties could not
agree on the selection of an arbitrator. Edmondson
filed a motion for summary judgment arguing, in
part, that the terms of the arbitration agreement
required arbitration to be administered by the
American Arbitration Association (AAA), but that
the agreement itself was invalid. The District Court
denied the motion as improperly filed, and the
parties ultimately submitted to arbitration with the
AAA.
The AAA arbitrator issued an award dismissing all of
Edmondson’s claims, and awarding “reasonable”
attorneys’ fees and costs. The District Court
subsequently entered an order denying Edmondson’s
motion to vacate the arbitration award, and granting
Lilliston’s cross-motion to confirm the award and its

7

Li

-5aapplication for attorneys’ fees and costs totaling
$10,709.391. Edmondson appealed, and we affirmed.
See Edmondson v. Lilliston Ford. Inc.. 722 F. App’x
251 (3d Cir. 2018).
Before us now is Edmondson’s appeal
from the denial of her Rule 60(b)(3) motion.2
Edmondson argued that the District Court’s
judgment should be vacated “due to the egregious
and biased behavior of the judge in not ruling
granting or denying summary judgment on the
viability of the contract given that it was procured
through fraud and misrepresentation.” We find no
abuse of discretion in the District Court’s denial of
the motion. First, Rule 60(b)(3) is not the proper
vehicle for challenging the District Judge’s alleged
misconduct. See Fed R. Civ. P. 60(b)(3) (pertaining
to misconduct “by an opposing party”). Moreover, as
the District Court noted, the underlying arguments
that the arbitration agreement was void ab initio
were previously rejected by the District Court, and
by this Court on appeal. See Edmondson. 722 F.
App’x at 254. A motion for relief from judgment may
not be used to reargue issues that were previously
resolved. See Barrett v. Lombardi. 239 F.3d 23, 28
(1st Cir. 2001). Finally, we note that, as the District
Court explained in denying Edmondson’s motion for
recusal, her allegations of judicial bias are merely
disagreements with the District Judge’s rulings. See
Arrownoint Capital Corn, v. Arrownoint Asset
Mgmt.. LLC. 793 F.3d 313, 330 (3d Cir. 2015) (noting
Edmondson appealed after the oral hearing on these motions,
but before the District Court entered its final order; the appeal
was dismissed for lack of jurisdiction. See C.A. No. 17-1543.
2 We have jurisdiction pursuant to 28 USC §1291. We review
an order denying a motion under Rule 60(b)(3) for abuse of
discretion. Budget Blinds. Inc, v. White. 536 F.3d 244, 251 (3d
Cir. 2008).

i

-6athat adverse rulings are insufficient evidence of
judicial bias). Based on the foregoing, we will affirm
the District Court’s order.

APPENDIX L
[Docket No. 147]
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
SARA ANN EDMONDSON, Civil No. 13-7704
(RMB/JS)
Plaintiff,
ORDER
v.
ULLISTON FORD, INC. et al.,
Defendants.
This matter comes before the Court upon
Plaintiff Sara Ann Edmondson’s Motion pursuant to
Federal Rule of Civil Procedure 60(d)(3). The Court
has reviewed the Motion. It consists of the same,
tired arguments Plaintiff has made for years, which
this Court has rejected. The Court of Appeals for the
Third Circuit has affirmed this Court’s final
judgment. Rule 60(d)(3) is not meant to relitigate the
merits of Plaintiffs case. See, e.g.. Williams v. Drug
Enforcement Administration. 51 F.3d 732, 736 (7th
Cir. 1995). Accordingly,
IT IS HEREBY, on this 11* day of May 2018,
ORDERED that the Motion is DENIED.
s/ Renee Marie Bumb
RENEE MARIE BUMB
UNITED STATES DISTRICT JUDGE

-7aAPPENDIX C
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 17-1991
SARA ANN EDMONDSON,
Appellant
V.
LILLISTON FORD INC;
JANE AND JOHN DOE 1-10, individually and as
owners, officers
Directors, founders, managers, agents, servants,
employees, representatives
and /or independent contractors of LILLISTON
FORD, INC.;
XYZ CORPORATIONS 1- 10
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 13-cv-07704)
District Judge: Honorable Renee M. Bumb
Submitted Pursuant to Third Circuit LAR 34.1(a)
December 22, 2017
Before: SHWARTZ, KRAUSE, and RENDELL,
Circuit Judges
(Opinion filed: January 11, 2018)

-8aOPINION*
*This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

PER CURIAM
Sara Ann Edmondson appeals from the
District Court’s order denying her motion to vacate
an arbitration award entered against her in favor of
Lilliston Ford, Inc. (“Lilliston”), and granting
Lilliston’s cross-motion to confirm the arbitration
award and its application for attorneys’ fees and
costs. For the reasons that follow, we shall affirm
the District Court’s order.
In 2013, Edmondson filed a complaint in
the District Court raising claims under the Federal
Odometer Act and the Magnuson-Moss Warranty
Act, as well as state law claims for, inter alia, fraud.
The claims stem from alleged wrongs related to her
purchase of a used car from Lilliston. In short,
pursuant to the REtail Installment Agreement (“the
Agreement”), Edmondson agreed to trade a 2004
Lincoln LS for an $800 credit towards the purchase
of a used Ford Focus. Shortly after the purchase,
Edmondson experienced problems with the Ford
Focus. Lilliston refused her attempt to return the
car and demanded title to the Lincoln or
reimbursement for the $800 credit she received from
the purchase. After protracted proceedings,
including a previous appeal to this Court1, the
District Court granted Edmondson’s motion to
1 See Edmondson v. Lilliston Ford. Inc.. 593 F. App’x 108 (3d
Cir. 2014) (vacating an order dismissing a motion to compel
arbitration).

*„

-9acompel arbitration under the Federal Arbitration Act
(FAA).
The parties could not agree on the
selection of an arbitrator, or on which party was
responsible for the costs associated with arbitration,.
Edmondson filed a demand for arbitration with the
American Arbitration Association (AAA). The AAA
noted that the arbitration clause had not been
registered through its Consumer Clause Registry; it
directed Lilliston to register the arbitration clause,
and to pay the associated registry and filing fees.
Lilliston refused to mediate before the AAA, stating
that it had “severed ties’ with it “years ago”;
consequently, the AAA declined to administer the
case. Edmondson then filed a motion for summary
judgment, arguing that the arbitration clause was
void because Lilliston had fraudulently represented
its intent to arbitrate with the AAA, and it severance
of ties with the AAA. After a hearing on the motion,
the District Court entered an order directing the
parties to show cause why the agreement did not
“require the parties to submit their disputes to
arbitration conducted by the AAA or by an individual
or organization authorized by the AAA and the
Defendants to pay the costs associated with the
arbitration as set forth in the Consumer Arbitration
Rules.” Dist. Court’s March 3, 2016 Op at 5.
Lilliston filed a notice of intent to consent to
arbitration with the AAA, and the arbitration
proceedings were held in December 2016.
The AAA arbitrator issued an award
dismissing all of Edmondson’s claims and ordering
her to execute documents vesting clear title to the
Lincoln to Lilliston within 14 days , or to refund the
$800 and remove the Lincoln from Lilliston’s

-10aproperty. In addition to awarding attorneys’ fees and
costs, the award also indicated that Lilliston “shall
be entitled to apply for an order in a Court of
Competent jurisdiction granting clear title to the
2004 Lincoln.” Appellee’s Suppl. App. at 133a.
Edmondson moved to vacate the arbitration
award, and Lilliston moved to confirm it. The
District Court entered judgment on April 26, 2017,
confirming the arbitration award, awarding fees and
costs totaling $10,709.39, and denying the motion to
vacate. This appeal ensued.
We have jurisdiction pursuant to 28
U.S.C. §1291 and 9 U.S.C. § 16.2 We review the
District Court’s legal conclusions de novo and any
factual findings for clear error. See Qpalinski v.
Robert Halflnt’l Inc.. 761 F.3d 326, 330 (3d. Cir.
2014); Freeman v. Pittsburgh Glass Works. LLC. 709
F.3d 240, 251 (3d Cir. 2013). Our review of the
underlying arbitration award is “extremely
deferential.” Dluhos v. Strashersr. 321 F.3d 365, 372
(3d Cir. 2003). Under the FAA, a court may vacate
an arbitration award only if “(l) it ‘was procured by
corruption, fraud, or undue means!’ (2) the arbitrator
was ‘partialO or corruptD;’ (3) the arbitrator
2

To the extent the Court’s order was not final when entered, it
became final at the time that the 30-day period for fifing the
motion for a clear title expired without any action by Lilliston.
See e.g. Baroff v. State Farm Ins.Co.. 977 F.2d 848,851 n.5 (3d
Cir. 1992) (order becomes final where plaintiff given 30 days to
amend complaint, but instead files notice of appeal within that
time). In any event, the arbitration award was confirmed in its
entirety, and was thus immediately appealable. See Virgin
Island Hous. Auth. v. Coastal Gen. Const. Servs. Coro.. 27 F.3d
911, 913 (3d Cir. 1994); see also 19 J. Moore, et al., Moore’s
Manual: Federal Practice and Procedure, § 203.12[4][a] (2016)
(“An order confirming an arbitration award or denying the
confirmation of an award in its entirety is immediately
appealable as of right as a final decision.”).

-11aunjustifiably refused to postpone the hearing,
refused to consider ‘evidence pertinent and material
to the controversy,’ or engaged in any other
‘misbehavior’ that prejudiced the rights of a party; or
(4) the arbitrator ‘exceeded [his or her] powers, or so
imperfectly executed them that a mutual, final, and
definite award upon the subject matter submitted
was not made.’” Roadway Package Svs.. Inc, v.
Kavser. 257 F.3d 287, 291 n.2 (3d Cir. 2001) (quoting
9 U.S.C. § 10), abrogated on other grounds by Hall
St.Assoc. L.L.C. v. Mattel. Inc.. 552 U.S. 576 (2008).
On appeal, as she did below, Edmondson
appears to argue that the arbitration award should
be vacated on the first two of these bases. She has
wholly failed to establish her contention that
Lilliston and the arbitrator are part of a “criminal
enterprise” or that they “were complicit in the
intentional misrepresentations and concealment of
material facts on the lease and sales contract.”
Appellant’s Br. at “6”.3 There is simply no evidence
of fraud or corruption in the record as it pertains to
the arbitration award.
The mainstay of Edmondson’s appeal is her
argument that the arbitration clause is invalid, and,
therefore, that the contract is void ab initio. The
Agreement’s arbitration provision provides that it
“shall be conducted in accordance” with the
Consumer Arbitration Rules (“the Rules”) of the
AAA, which, in turn, require the arbitration to be
administered by the AAA. See Am. Arbitration
Ass’n, Consumer Arbitration Rules R-l (Sept. 1,
2014), httnV/www. adr.org/consumer. Edmondson
argues that the arbitration clause is void because of
Appellant created her own pagination for her brief; these
references are on the page numbered “6”, which is actually page
10.

v

-12aLilliston’s failure to register it with the AAA, and
because Lilliston stated that it had “severed its ties”
with the AAA. In rejecting this argument, the
District Court concluded that the fact that Lilliston
did not have a relationship with the AAA at the time
of the Agreement “is neither her nor there.” Dist.
Court’s April 26, 2017 Op. at 8 n.6. We agree. The
AAA administers arbitrations where there is no
AAA arbitration clause between the parties. See R-3
of the Rules. Moreover, it was not until September 1,
2014, after the Agreement was executed and, indeed,
after the complaint was filed, that the AAA required
businesses to register an arbitration clause through
the AAA’s Consumer Clause Registry. See R-12. In
any event, the Rules make clear that failure to
register prior to the filing of a demand for
arbitration is of no moment; rather, the AAA will
administer the arbitration once the business pays the
review and registry fees. Id. That is what occurred
here: Lilliston paid the requisite fees and the AAA
agreed to administer the arbitration, just as
Edmondson had repeatedly urged was required by
the Agreement.4 Accordingly, because there was no
basis for invalidating the arbitration clause, and
there were no other disputes regarding its scope, the
District Court properly “directed] the parties to
proceed to arbitration in accordance with the terms
of the agreement.” 9 U.S.C. § 4.
4 Edmondson makes much of the fact that, in a letter declining
to administer the case after the initial demand for arbitration,
the AAA asked Lilliston to remove reference to the AAA from
the consumer arbitration clause that appeared in Lilhston’s
lease and sales agreements, and advised that it may decline to
administer future consumer arbitrations involving Lilliston.
This was merely in response to Lilhston’s failure to pay the
filing and registry fees. Once the fees were paid, the AAA
agreed to administer the matter, as permitted by the Rules.

-13aFinally, the arbitrator determined that
Lilliston was entitled to “reasonable attorney’s fees
and costs” incurred in connection with the
enforcement of the arbitration.5 Lilliston submitted
to the District Court a Certification of fees and costs,
which included a detailed breakdown of the hours
billed in connection with its efforts to enforce the
arbitration award. Edmondson failed to raise any
specific objections to the Certification. United States
v. Eleven Vehicles. Their Eouin. & Accessories. 200
F.3d 203, 211-12 (3d Cir. 2000) (noting that a district
court may not award less in fees than requested
unless the opposing party makes specific objections
to the fee request). The District Court nevertheless
reviewed the Certification, and explained its basis for
concluding that the bill was both reasonable and
adequately supported. We find no abuse of discretion
in its determination. See In re Cendant Corn.
PRIDES Litig.. 243 F.3d 722, 727 (3d Cir. 2001).
Based on the foregoing, we will affirm the
District Court’s order.6

5 “[Alrbitrators derive their powers from the parties’
agreement.” White Springs Agric. Chems.. Inc. v.Glawson
Investments Corn.. 660 F.3d 1277, 1281 (llth Cir. 2011). The
Agreement provided that the parties shall bear their own fees
and costs, “except when awarded by the arbitrator under
applicable law.” Appellee’s Suppl. App. at 61a. Accordingly, the
District Court had no basis to disturb the arbitration award to
the extent it granted fees and costs. White Springs. 660 F.3d at
1281 (explaining that courts do not review the legal merits of
the arbitrator’s award where there is a basis for it in the
agreement).
6 Edmondson’s motion for a stay is denied.

-14aAPPENDIX D
NOT FOR PUBLICATION fDocket Nos. 87, 93, 108]
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civil Action No. 13-7704
(RMB/JS)
SARA ANN EDMONDSON,
Plaintiff,
v.

OPINION

LILLISTON FORD, INC. et al„
Defendants.
APPEARANCES:
Sara Ann Edmondson
71 Rainbow Trail
Pittsgrove, New Jersey 08318
PROSE Plaintiff
Kevin J. Thornton, Esq.
Cooper Levenson P.A.
1125 Atlantic Avenue, 3rd Floor
Atlantic City, New Jersey 08401
Attorney for Defendant Lilliston Ford, Inc.
BUMB, UNITED STATES DISTRICT JUDGE:

"7

-15aThis matter comes before the Court upon
Plaintiff Sara Ann Edmondson’s “Motion to Vacate
Arbitration Award Pursuant to U.S.C. § 10(a)(1)
Corruption, Fraud and Undue Means” [Docket No.
87], Defendant Lilliston Ford Inc.’s Cross-Motion
“Requesting An Order to Show Cause! to Strike
Plaintiffs Submissions! and Confirm the Award of
Arbitration pursuant to 9 U.S.C. § 1 et seq.” [Docket
No. 93], and Plaintiffs “RESPONSE TO COURT’S
MARCH 23, 2017 ORDER & MOTION FOR STAY
PENDING APPEAL” [Docket No. 108]. For the
reasons set forth herein, Defendant’s Motion to
Confirm the Arbitration Award is granted, in part,
and Plaintiffs Motion to Vacate the Arbitration
Award is denied. The Arbitration Award entered on
December 27, 2016 is hereby confirmed. To the
extent the Plaintiffs “RESPONSE TO COURT’S
MARCH 23, 2017 ORDER & MOTION FOR STAY
PENDING APPEAL” may be construed as a motion
to stay this action or the Arbitration Award pending
appeal, the motion is denied as moot.
Defendant seeks further relief from this Court
surrounding the alleged unauthorized practice of law
by Plaintiffs daughter, Tracee Edmondson, in
violation of N.J.S.A. § 2C:21-22,1 District of New
Jersey Local Civil Rule 101.1, and New Jersey Court
Rule 1:21-1. Specifically, Defendant seeks an Order
to Show Cause “in accordance with this Court’s prior
practice with Sara Ann Edmondson’s daughter
1 N.J.S.A. § 2C-21-22 provides, in relevant part: “A person is
guilty of a crime of the fourth degree if the person knowingly
engages in the unauthorized practice of law.”

1

i

■t

-16a[Tracee Edmondson] for the unauthorized practice of
law” and an Order striking any submissions by
Plaintiff that were prepared by Tracee Edmondson.
Def. Opp. Br. at 1-2, 9-12 [Docket No. 92]; Def. Notice
of Cross-Motion [Docket No. 93], These requests are
denied. However, because there is sufficient
evidence before this Court to demonstrate conduct on
the part of Tracee Edmondson violative of N.J.S.A. §
2C:2T22, consistent with this Court’s ethical
obligations, the Court will forward the matter to the
appropriate law enforcement agencies with
jurisdiction over such allegations.2
I.
FACTUAL AND PROCEDURAL

BACKQROUND
This protracted litigation, spanning more than
three years, involves a dispute regarding Plaintiffs
purchase of a 2012 Ford Focus from Lilliston. As
part of that purchase, Edmondson agreed to trade in
her 2004 Lincoln LS and receive an $800.00 credit
from Lilliston. The parties executed a Retail
Installment Agreement (the “Agreement”). Lilliston
thereafter delivered the Ford Focus to Edmondson.
Edmondson alleges that shortly after the purchase,
she experienced mechanical difficulties with the car.
After multiple attempts to repair the car, she tried to
return it but Lilliston would not accept it. Lilliston
also demanded that she turn over the title to the
2

In addition to this Court’s own observations that Plaintiff
appeared not to be writing her own papers, see, e.sr.. Mem.
Order at 3 [Docket No. 36], Defendant has also set forth
convincing evidence of Tracee Edmondson’s unauthorized
practice of law. See, e.g.. Def. Br. at 3 [Docket No. 92]; Hughes
Cert. Exs. 5-11 [Docket No. 92-2],

}
-17a2004 Lincoln or reimburse the company for the
$800.00 vehicle trade-in credit, but Edmondson
refused. Lilliston thereafter filed a lawsuit in the
Superior Court of New Jersey, Law Division, Special
Civil Part, Salem County, and Edmondson
counterclaimed. In January 2013, the state court
action was dismissed without prejudice. Def. MTD
Ex. 5 [Docket No. 6-2],
Edmondson filed a demand for arbitration
with the American Arbitration Association (“AAA”)
in October 2013. On November 8, 2013, the AAA
stated to the parties that, per the parties’
Agreement, “it appears [Lilliston] is responsible for
payment of the Consumer’s portion of the filing fee in
the amount of $200.00 in addition to the fees
attributable to the Business under the rules, for a
total of $3,200.00.” Nov. 8, 2013 AAA Letter at 15
[DocketNo. 1-2]. On November 19, 2013, the AAA
declined to arbitrate the case, however, because
Lilliston had not paid the required arbitration fees.
Nov. 19, 2013 AAA Letter at 22 [Docket No. 1-2].
The AAA also requested that Lilliston “remove the
AAA name from its arbitration clause so that there is
no confusion to the public regarding our decision.” LL
_____ On December 20, 2013, Edmondson filed a
Complaint with this Court alleging claims under the
Magnuson-Moss Actand the Odometer Act, as well as
several state law claims. Defendant filed a Motion to
Dismiss--which should have been a Motion for
Judgment on the Pleadings because an Answer had
already been filed--contending, in relevant part, that
there was no controversy between the parties

1
-18abecause the parties had settled their differences in
state court. Def. MTD [Docket No. 61]. Lilliston
represented to this Court that the parties had
reached a settlement in the state court action,
whereby the dealership withdrew its claims without
prejudice on the condition that Edmondson execute a
form stating that the title to the trade-in vehicle had
been lost. Edmondson disagreed that there was a
settlement. According to her, the parties mutually
agreed to withdraw their claims to engage in
arbitration.
Prior to oral argument on the Motion to
Dismiss, Edmondson filed a Motion to Compel
Arbitration under the Federal Arbitration Act
(“FAA”) [DocketNo.14], At oral argument, the Court
questioned its subject matter jurisdiction in addition
to whether the case had settled. In attempting to
resolve the foregoing issues, the Court imprudently
denied Plaintiffs Motion to Compel Arbitration--as
opposed to administratively staying the motion--so
that it could determine, first, whether it had subject
matter jurisdiction and, second, whether the case
had in fact settled before the state court [Docket No.
16]. Plaintiff appealed that Order. The Third
Circuit vacated the Court’s denial of the Motion to
Compel but acknowledged the Court’s need to first
address its subject matter jurisdiction. The Third
Circuit also indicated “there is at least a reasonable
possibility that some of the issues presented are
arbitrable.” 3d Cir. Opinion at 6[Docket No, 44-2],
On remand, this Court--after a series of
prolonged proceedings, including three motions for

1
-19arecusal by Plaintiff [Docket Nos. 32, 49, 51]-concluded that Plaintiff had sufficiently, although
barely, pled a violation of the federal Odometer Act,
49 U.S.C. § 32701, et sea., giving this Court
jurisdiction to hear the Motion to Compel [Docket
No. 61].3 Additionally, after a difficult time with the
parties, the Court determined that, contrary to
Defendant’s representations to this Court, no
settlement had been reached before the state court.
At every turn of the litigation before this
Court, Plaintiff vigorously sought to compel
arbitration pursuant to the arbitration provision of
the Agreement. In relevant part, the provision
provides:
The parties to this agreement agree to
arbitrate any claim, dispute, or controversy,
including all statutory claims and any state or
federal claims, that may arise out of or
relating to the sale or lease identified in this
agreement.... The arbitration shall be
conducted in accordance with the rules of the
American Arbitration Association before a
single arbitrator, who shall be a retired judge
of attorney ....
Agree at 6 [Docket No. l-l].
The Court granted Plaintiffs motion to compel
arbitration on June 22, 2015 and administratively
stayed the matter pending the arbitration [Docket
No. 61]. The parties were unable to arbitrate with
The FAA does not independently confer subject matter
jurisdiction. Moses H. Cone Mem’l Hosn. v. Mercury Constr.
Corn.. 460 U.S. 1, 26 n. 32 (1983); see also 9 U.S.C.§ 4.

t

^Oathe AAA and Plaintiff filed a motion for summary
judgment on September 3, 2015, in which Plaintiff
sought the entry of judgment in her favor on each of
her ten substantive counts set forth in her Complaint
[Docket No. 67].
At oral argument, on January 27, 2016,
Plaintiff expressed, once again, her desire to
arbitrate her claims. In light of this and because
there was never a dispute that all the claims and
issues were within the scope of the Agreement’s
arbitration provision, the Court ordered the parties
to arbitration and, initially, to agree on the selection
of an arbitrator [Docket No. 74]. The parties
commenced the arbitration process, but they could
not agree on the final selection of the arbitrator.
Plaintiff thereafter moved for an order enforcing the
specific provision of the Agreement that the
arbitration must be “in accordance with the rules of
the American Arbitration Association” and conducted
by an AAA arbitrator, not a private mediator selected
by the parties [Docket No. 75].4 The Court then
ordered Defendant to show cause why the Agreement
did not require the parties to submit their disputes to
arbitration conducted by the AAA or by an individual
or organization authorized by the AAA and
Defendant to pay the costs associated with the
4 As set forth supra, according to the parties’ Agreement, the
arbitration was to be conducted in accordance with AAA’s
Rules. The AAA Consumer Arbitration Rules provide that,
when the parties’ contract states that the dispute will be
arbitrated under the AAA’s rules, the parties thereby agree that
the AAA will administer the arbitration. See Mar. 3, 2016
Opinion at 4[Docket No. 76],

1
*

^laarbitration [Docket Nos. 76, 77]. On March 8, 2016,
Defendant agreed to arbitrate using the services of
the AAA [Docket No. 80].5 Thus, as set forth in
Defendant’s letter, Lilliston agreed to arbitrate
before the AAA--as it was required to do in the first
instance (although no party raised this issue
initially). To do so, Lilliston would have to pay the
requisite AAA fees associated with an AAA
arbitration.6
The arbitration proceeding was held on
December 13, 2016. On December 27, 2016, the AAA
arbitrator issued an arbitration award (the
“Arbitration Award”) dismissing all of Edmondson’s
claims and ordering Edmondson to return title to the
2004 Lincoln to Lilliston within 14 days or be subject
to a fee of $35.00 a day for its storage at Lilliston’s
dealership. The ruling provided as follows^
Any and all claims by Respondent
[Edmondson] against Claimant [Lilliston] are
hereby dismissed, with prejudice, as the
Respondent failed to prove any cause of action
upon which relief could be granted;
5 Perplexingly, Edmondson filed an “Intent to File Mandamus
Petition,” complaining of this Court’s “partiality” by extending
“yet another courtesy” to Defendant [Docket No. 78]. Two days
later, she filed a copy of a Mandamus petition [Docket No. 82].
6 Edmondson appears to have taken the position that the
Agreement was void ah initio because Lilliston did not have a
relationship with the AAA at the time of the Agreement. Even
assuming that is so, that is neither here nor there. The
Agreement provided that the parties arbitrate their dispute
before the AAA. Whether Lilliston owed fees to the AAA or was
in good standing with the AAA is between Lilliston and the
AAA. Plaintiff sought to enforce the AAA arbitration provision,
as written in the AGreement, and prevailed.

-22aRespondent is hereby Ordered to execute such
documents as shall vest clear title to the 2004
Lincoln in the Claimant within fourteen (14)
days of entry of this Final Award; or
If Respondent shall fail to execute such
documents then she shall refund the $800.00
trade-in value of the 2004 Lincoln and remove
it from Claimant’s property and premises
within thirty (30) days of the entry of this
Final Award; and If Respondent shall fail to
make such payment and remove the 2004
Lincolnfrom Claimant’s premises within thirty
(30) days of the entry of this Final Award then
she shall pay Claimant a storage fee of ThirtyFive ($35.00) per day beginning on the thirtyfirst (31st) day after the entry of this Final
Award until clear title is obtained by Claimant
or the 2004 Lincoln is removed fromClaimant’s
property and premises; and Claimant shall be
entitled to apply for an Order in a Court of
competent jurisdiction granting clear title to
the 2004 Lincoln which is the subject matter of
this Arbitration! and
Respondent shall be responsible to reimburse
Claimant for reasonable attorney’s fees and
costs of Court incurred on account of
enforcement of this Final Award to obtain
clear title to the 2004 Lincoln and any other
necessary enforcement this Final Award; and
Other than as set forth in the proceeding
paragraphs, each party shall pay their own
attorney’s fees and costs of suit.

1

-23aArbitration Award at 2-3, Hughes Cert. Ex. 18
[Docket No. 92-4],
Two days later, on December 29, 2016,
Plaintiff moved to vacate the Arbitration Award
before this Court [Docket No. 87], To this day,
Edmondson has refused to turn over the title to the
2004 Lincoln or reimburse Lilliston the $800.00
vehicle trade-in credit and remove the vehicle from
Lilliston’s lot where it has been stored since 2012.
H.
LEGAL ANALYSIS
Pursuant to 9 U.S.C. § 9, after an arbitration
award is entered, the Court must judicially enforce
the award “unless the award is vacated, modified, or
corrected ....” Hall St. Assocs.. L.L.C. v. Mattel. Inc..
552 U.S. 576, 587 (2008). “There is a strong
presumption under the Federal Arbitration Act, 9
U.S.C. et sea., in favor of enforcing arbitration
awards.” Brentwood Med. Assocs. V. United
Mine Workers of Am.. 396 F.3d 237, 241 (3d Cir.
2005) (citing Moses H. Cone Mem’l Hosn.. 460
U.S. at 24-25; see also Hamilton Park Health Care
Ctr. Ltd, v. 1199 SEIU United Healthcare Workers
K, 817 F.3d 857, 861 (3d Cir. 2016).
Pursuant to 9 U.S.C. § 10(a), there are only
four grounds upon which an arbitration award may
be vacated:
1. where the award was procured by corruption,
fraud and undue means;
2. where there was evident partiality or
corruption in the arbitrators, or either of them;
3. where the arbitrators were guilty of
misconduct in refusing to postpone the

1

-24ahearing, upon sufficient cause shown, or in
refusing to hear evidence pertinent and
material to the controversy! or of any other
misbehavior by which the rights of any party
have been prejudiced! or
4. where the arbitrators exceeded their powers,
or so imperfectly executed them that a mutual,
final, and definite award upon the subject
matter submitted was not made.
9 U.S.C. § 10(a).
In general, Plaintiff claims that the
Arbitration Award was procured by corruption,
fraud, or undue means. At oral argument, the Court
sought to elicit a better understanding of Plaintiff s
claims. Despite this Court’s best efforts to do so,
Plaintiffcould not answer thisCourt’s most basic
questions. Instead, Plaintiff simply referred the
Court to her papers, refusing to elaborate. This
conduct naturally confirmed the Court’s continued
suspicions that Tracee Edmondson had written
Plaintiffs submissions.
As best as this Court can determine, they are
as follows, each of which is woefully deficient to
warrant vacating the Arbitration Award. First,
Edmondson contends that the arbitrator was biased
against her because one of the e-mails he sent to the
parties was addressed to “Counsel” (referring to
counsel for Lilliston) and “Ms. Lilliston”. See Dec. 1,
2016 E-mail, Hughes Cert. Ex. 13 at 2 [Docket No.
92-4], From this--the reference to Ms. Lilliston-Plaintiff leaps to the unfounded conclusion that the
arbitrator was engaging in ex narte communications

1

#

-25awith Lilliston, even though Edmondson had received
the e-mail in question. Despite the obvious
explanation--that this was a typographical error
meant to say “Ms. Edmondson”--the arbitrator
nonetheless admitted his typographical error and
apologized for it. Dec. 2, 2016 E-mail, Hughes Cert.
Ex. 17 at 9 [Docket No. 92-4]. Moreover, even after
Plaintiff requested the arbitrator’s recusal, the AAA
reaffirmed the arbitrator’s neutrality and denied her
request. Dec. 12, 2016 Letter, Hughes Cert. Ex. 15
[Docket No. 92-4],
Second, Edmondson points to an alleged
improper ex parte communication between counsel
for Lilliston and the arbitrator. However, the record
evidence demonstrates that the arbitrator did not
have an ex narte communication with Defendant’s
counsel, Mr.Hughes. See June 9, 2016 E-mail,
Hughes Cert. 10 [Docket No. 92-2]; June 6, 2016 Email, PI. Motion Ex. B {Docket No. 87}. Rather, the
arbitrator sent an e-mail to counsel and Plaintiff
explaining that in, “accordance with AAA rules and
procedures, I am afraid I cannot deal directly with
you [counsel] to avoid the appearance of ex parte
communication,” June 6, 2016 E-mail, PI. Motion Ex.
B. As the documents bear out, and as explained by
counsel for Lilliston at oral argument, counsel
attempted to reach the arbitrator to determine the
procedure for requesting adjournments in light of his
adversary’s pro se status. There was no direct
contact with the arbitrator, and the arbitrator
indicated as such. There is simply no evidence of
corruption or collusion.

-26aFinally, it appears that Edmondson argues
that because Lilliston did not pay the requisite fees,
the arbitration provision of the Agreement is
unenforceable and was not enforceable ab initio. It is
difficult to understand what Plaintiff seeks to gain
from such an argument other than a second bite at
the apple. Plaintiff sought for years to compel
arbitration, as detailed above. The parties’ initial
efforts were not pursuant to the rules governing the
AAA and this Court, upon becoming aware of same,
ordered the arbitration to be conducted by the AAA.
That the initial efforts at arbitration failed prior to
his lawsuit because Lilliston failed to maintain its
fees is of no moment because, ultimately, upon Order
of this Court, Lilliston paid whatever fees it owed
and the AAA arbitration ensued.
The FAA dictates that when a party seeks to
compel arbitration, the “court shall hear the parties,
and upon being satisfied that the making of the
agreement for arbitration or the failure to comply
therewith is not in issue, the court shall make an
order directing the parties to proceed to arbitration
in accordance with the terms of the agreement.” 9
U.S.C. § 4. The Court was satisfied that there was a
valid and binding arbitration provision in the parties’
Agreement that covered Plaintiffs claims. Indeed,
Plaintiff sought to enforce that provision, and
Defendant never argued that it was not a valid
provision. Moreover, the scope of the arbitrable
issues has never been in dispute.
Plaintiff appears to take the words “refusal to
perform” the arbitration from the statute out of

1

-27acontext. AS best the Court can discern, seizing upon
the statutory language out of context, Plaintiff seems
to argue that 9 U.S.C. § 4 dictates that if a party
refuses to perform under an arbitration clause, the
“Court shall proceed summarily to the trial thereof.”
Thus, it appears, Plaintiffs argument is that,
because Lilliston did not perform by failing to pay
the AAA fees, Plaintiffs substantive claims, as set
forth in her Complaint, should have been summarily
decided by this Court.
Plaintiff is mistaken. Section 4 governs the
role a jury (or a court if no jury is demanded) plays.
The jury must determine whether an agreement in
writing to arbitrate was made and, if so, whether
there was a “default” in proceeding under the
arbitration provision. 9 U.S.C. § 4; see also Devon
Robotics. LLC v. DeViedma. 798 F.3d 136, 144 (3d
Cir. 2015) (“where ‘the party opposing arbitration
can demonstrate, by means of citations to the record,
that there is a genuine dispute as to the
enforceability of the arbitration clause, the court may
then proceed summarily to trial regarding the
making of the arbitration agreement or the failure.
neglect, or refusal to perform the same, as Section 4
of the FAA envisions.”’) (quoting Guidotti v. Legal
Helpers Debt Resolution. LLC. 716 F.3d 764, 766 (3d
Cir. 2013)) (emphasis added). Stated differently,
Section 4 governs trial on factual issues dealing with
arbitrability only i.e. whether an agreement to
arbitrate was made that covers the claims in
question or whether there is a dispute as to which
party is refusing to arbitrate. Neither of those issues

1

-28awas in dispute in this case and, as a result, the Court
was not required to have a jury resolve them. Thus,
Edmondson’s apparent argument that the
Arbitration Award should be vacated because she
should have been allowed to go to trial (or even
granted summary judgment) before this Court on her
underlying claims given Lilliston’s “refusal” to
arbitrate has no merit.7 The Court sees no basis to
vacate that award. Accordingly, the Court denies
Plaintiffs Motion to Vacate the Arbitration Award
and grants Defendant’s Motion to Confirm the
Arbitration Award.
HI. ATTORNEYS* FEES REQUEST
The Arbitration Award provides that
“Respondent (Edmondson) shall be responsible to
reimburse Claimant for reasonable attorney’s fees
and costs of Court incurred on account of this Final
Award to obtain clear title to the 2004 Lincoln and
any other necessary enforcement [of] this Final
Award.” Arbitration Award, Hughes Cert. Ex. 18 at
2. On March 21, 2017, Defendant’s counsel
submitted a certification setting forth Defendant’s
7 The Court notes that a party’s failure to arbitrate when
ordered to do so faces contempt proceedings, not a summary
trial as Plaintiff contends. See F.T.C. v. Lane Lahs-USA. Inc..
624 F.3d 575, 582 (3d Cir. 2010) (contempt finding appropriate
where party knowingly disobeys vahd court order); see also
Evans v. Affiliated Computer Servs. Inc.. —F. App’x —2017
WL 1020365, at *1 (9th Cir. Mar 16, 2017) (affirming district
court’s decision to hold party in contempt where party violated
court’s order to arbitrate); InterGen N.V. v. Grina. 344 F.3d
134, 142 (1st Cir. 2003) (noting that district court may “adjudge
a recalcitrant party in contempt” for failure to comply with
order to arbitrate).

-29arequest for attorneys.' fees and costs pursuant to this
section of the Arbitration Award. Hughes Cert.
[Docket No. 103].
On March 23, 2017, the Court directed
Plaintiff to respond to counsel’s certification by
setting forth any specific objections to the
reasonableness of Defendant’s requested attorneys’
fees and costs [Docket No. 104]. Plaintiff failed to do
so. Instead, Plaintiff wrote: “I disagree with any and
all certifications made by Defendant for costs or fees
associated with defending an arbitration award that
was arbitrary and capricious and secured through
fraudulent, corrupt and collusive means.” March 30,
2017 PI. Letter [Docket No. 108].8
In support of its application for attorneys’ fees
and costs, Defendant has provided a sworn
Certification from its attorney at the time, Mr.
Hughes, as well as all relevant time records and
invoices. For the reasons set forth in further detail
below, the Court finds that the fees and costs
requested are adequately supported. “[0]nce the fee
petitioner ‘submitts] evidence supporting the hour
8

Plaintiff captioned this response “PLAINTIFF RESPONSE TO
COURT’S MARCH 23, 2017 ORDER & MOTION FOR STAY
PENDING APPEAL”. It is unclear what Plaintiff requests from this
Court. In any case, Plaintiffs appeal was dismissed by the Third
Circuit Court of Appeals on April 7, 2017 for lack of appellate
jurisdiction as this Court had not yet entered an order and final
judgment following oral argument on March 10, 2017. 3d Cir.
Order [Docket No. 109], As Plaintiffs appeal has been dismissed,
to the extent Plaintiffs request may be construed as a motion to
stay the case or the Arbitration Award pending appeal, the Court
denies Plaintiffs request as moot. If appropriate, Plaintiff may
renew her motion at a later date. Any such motion should be
properly supported with references to the relevant legal standards.

-30aworked and rates claimed,’ the party opposing the fee
application has the burden to challenge the
reasonableness of the requested fee.” McKenna v.
City of Philadelphia. 582 F.3d 447, 459 (3d Cir. 2009)
(quoting Henslev v. Eckerhart. 461 U.S. 424, 433
(1983); citing Rode v. Dellarcinrete. 892 F.2d 1177,
1183 (3d Cir. 1990)) (addressing attorneys’ fees in
statutory fee-shifting context). To meet this burden,
the party opposing the fee award must set forth its
challenges, “by affidavit or brief with sufficient
specificity to give fee applicants notice, [to] the
reasonableness of the requested fee.” Eichenlaub v.
Two, of Indiana. 214 F. App’x 218, 223 (3d Cir. 2007)
(citing Rode. 892 F.2d at 1183).
“Once the adverse party raises sufficiently
specific objections to the fee request, a district court
‘has a great deal of discretion to adjust the fee award
in light of those objections.’” Tavlor v, USF-Red Star
Exp.. Inc.. 212 F. App’x 101, 111 (3d Cir. 2006)
(quoting Rode. 892 F.2d at 1183). However, this
Court may not reduce the attorneys’ fees and costs
requested by Defendant sua sponte based on factors
not raised by Plaintiff. Id. (“But a district court may
not make sua sponte reductions to fee requests based
on material facts not raised at all by the adverse
party, because that would deprived the fee petitioner
of notice of the need to offer evidence of
reasonableness ....”); accord McCutcheon v. Am.’s
Servicing Co.. 560 F.3d 143, 150 (3d Cir. 2009) (“The
district court cannot decrease a fee award based on
factors not raised at all by adverse party.”). Thus, in
assessing Defendant’s fee application, this Court

-31a“may not award less in fees than requested unless
the opposing party makes specific objections to the
fee request.” United States v. Eleven Vehicles. Their
Eauio. & Accessories. 200 F.3d 203, 211 (3d Cir.
2000); accord McKenna. 582 F.3d at 459 (“A district
court should not ‘decrease a fee award based on
factors not raised at all by the adverse party.’”
(quoting Bell v. United Princeton Properties. Inc..
884 F.2d 713,720 (3d Cir. 1989).
Despite being explicitly afforded an
opportunity to do so, Plaintiff has not presented anv
specific objections or challenges to the requested fees
and costs. See March 23, 2017 Order [Docket No.
104], Nonetheless, the Court is cognizant of the fact
that “the awarding of an attorney’s fee is a judicial
action and, regardless of the parties’ indifference to
it, a court need not lend its imprimatur to an
inappropriate order merely because there was no
objection to its entry.” McKenna. 582 F.3d at 459.
Accordingly, even though Plaintiff did not articulate
any specific objections or challenges to Defendant’s
fee request, the Court reviews the request for
reasonableness and appropriateness before awarding
Defendant attorneys’ fees and costs incurred in
connection with enforcement of the Arbitration
Award, as provided by the Arbitrator.
Defendant seeks $10,597.50 in attorney’s fees
and $11.89 in costs incurred in connection with
enforcing Arbitration Award. For a total of
$10,709.39. Hughes Cert. TH[12, 14.9 Mr. Hughes’s
In his Certification, Mr. Hughes states that the total amount of
attorney’s fees and costs incurred by Defendant in connection with

-32ahourly rate on this matter is $450.00 and his partner
Robert E. Salad’s hourly rate is $750.00. IdL If 9.
The time records also reveal one entry from Laura
Krah Newton billed at a rate of $195 per hour. Mar.
8, 2017 Invoice, Hughes Cert. Ex. A at 12 [Docket No.
103],
According to the time records submitted, on
January 5, 2017, Mr. Salad billed 0.20 hours
analyzing issues related to enforcement of the
Arbitration Award. The same day, Mr. Hughes billed
0.70 hours drafting a letter to Plaintiff and reviewing
the Arbitration Award. The following day, Mr.
Hughes billed 0.90 hours reviewing and analyzing
Plaintiffs Motion to Vacate Arbitration Award and
preparing his notice of appearance. On January 11,
2017, Mr. Hughes billed 0.80 hours reviewing
Plaintiff s supplemental submission, titled
“PLAINTIFF RESPONSE TO DEFENDANT
OPPOSITION TO MOTION TO VACATE
ARBITRATION AWARD” [Docket No. 90]. On
January 18, 2017, Mr. Hughes billed a total of 3.00
hours, consisting of 2.2 hours reviewing and
analyzing Plaintiffs submissions and conducting
legal research for Defendant’s cross-motion,' 0.20
hours for a telephone conference with Plaintiff 0.30
hours drafting a letter to the Clerk of the Court
requesting an automatic extension of the return date
of a dispositive motion; and 0.30 hours reviewing the
enforcement of the Arbitration Award is $11,934.39. Hughes Cert.
U 8. This total amount appears to erroneously include an
additional $1,225 entry, which counsel wrote off his time records.
See Feb. 3, 2017 Account Summary, Hughes Cert. Ex. A at 13
[Docket No. 103],

-33astatus of the return date and documents for inclusion
in Defendant’s opposition brief. Plaintiff has not set
forth any specific objections to these billing entries.
Nonetheless, the Court has independently reviewed
counsel’s time records and any corresponding
submissions to theCourt and finds the time billed to
be reasonable and adequately supported.
In connection with the preparation and
submission of Defendant’s opposition to Plaintiffs
motion and Defendant’s cross-motion, counsel billed
an additional 9.9 hours. Specifically, on February 6,
2017, Mr. Hughes billed 5.40 hours conducting legal
research and drafting Defendant’s opposition to
Plaintiffs Motion to Vacate the Arbitration Award
and Defendant’s Cross-Motion to Confirm the
Arbitration Award and for an Order to Show Cause,
as well as drafting the corresponding notice of
motion. Mr. Hughes also billed 3.20 hours reviewing
and analyzing the exhibits attached to Defendant’s
opposition brief and preparing his certification in
support of Defendant’s opposition brief. Ms. Newton
also billed 0.50 hours researching how to obtain
corporate status reports. The following day, on
February 7, 2017, Mr. Hughes billed 0.80 hours
corresponding with the Clerk of the Court and
reformatting Defendant’s cross-motion to conform to
the Clerk’s instructions. Once again, Plaintiff has
not presented any challenges or objections to these
billing entries. The Court has reviewed these entries
as well as the submissions to the Court to which the
entries correspond and finds the attorneys’ fees
incurred to be reasonable and properly documented.

-34aIn connection with the hearing on Plaintiffs
Motion to Vacate the Arbitration Award and
Defendant’s Cross-Motion to Confirm the
Arbitration, which the Court scheduled for March 10,
2017, Mr. Huges billed a total of 7.7 hours.
Specifically, on March 9, 2017, Mr. Hughes billed 2.0
hours preparing for the oral argument. He then
billed 4.00 hours on March 10, 2017 for attending the
oral argument before this Court, travelling to and
from Camden, New Jersey, and for a post-hearing
conference with his client. The Court notes that the
hearing lasted approximately thirty minutes and
that counsel’s office is in Atlantic City, New Jersey,
at least an hour’s drive each way from the courthouse
in Camden, New Jersey. See Mar. 10, 2017 Minutes
[Docket No. 100]. That same day, counsel billed 0.20
additional hours reviewing Plaintiff s notice of appeal
and 0.80 hours researching Defendant’s legal options
in light of Plaintiffs appeal.10 Two days later, on
March 12, 2017, Mr. Hughes billed 0.70 hours
preparing a response to this Court regarding
Plaintiffs premature notice of appeal. This letter
was submitted to the Court on March 13, 2017
[Docket No. 101]. The Court notes again that
Plaintiff submitted no objections to these entries.
The Court has reviewed the time records and any
10 The Court does not interpret the description for the 0.20 hours
entry, “RECEIPT & REVIEW - NOTICE OF APPEAL”, to mean that
counsel spent twelve minutes merely reading Plaintiffs notice of
appeal. The Court finds that the total time billed by counsel on
March 10, 2017 for reviewing, analyzing, and researching
Defendant’s legal options in light of Plaintiffs notice of appeal-one
hour-is reasonable.

-35acorresponding submissions to the Court and finds the
time billed to be reasonable and well-supported.
Having considered counsel’s billing records
and Certification, the Court finds the hours billed by
Defendant’s counsel in enforcing the Arbitration
Award to be reasonable and appropriate.
Additionally, Plaintiff has not objected to the hourly
rates charged by Mr. Hughes, Mr. Salad, or Ms.
Newton. The Court finds the hourly rates to be
reasonable in light of Mr.Hughes and Mr. Salad’s
extensive experience as attorneys and their law
firm’s national presence and reputation. See Hughes
Cert. Tlf 2-5, 9-10. Accordingly, Defendant’s request
for $10,597.50 in attorneys’ fees is granted.
In addition to attorneys’ fees, Defendant
requests a total of $111.89 in litigation costs. This
amount consists of $6.46 incurred on January 5, 2017
for sending Plaintiff Mr. Hughes’s notice of
appearance via certified mail; $12.50 incurred on
February 6, 2017 to obtain New Jersey business
service and corporation status reports for Tracee
Edmondson’s company, Total Envolvement, Inc.; and
$31.73 in UPS costs incurred on February 7, 2017 for
sending Defendant’s opposition brief and CrossMotion to Confirm the Arbitration Award to Plaintiff.
See Feb. 3, 2017 Invoice and Mar. 8, 2017 Invoice,
Hughes Cert. Ex. A at 12, 14. As with the attorneys’
fees, Plaintiff has not set forth any specific objections
to these costs. The Court finds that the costs
requested by Defendant are reasonable and
appropriate, especially in light of Plaintiffs nro se

-36astatus. Defendant’s request for $111.89 in costs is
granted.
In sum, for the foregoing reasons, the Court
finds that Defendant’s request for attorneys’ fees and
costs is reasonable and properly supported. AS the
Arbitration Award provides that Defendant shall be
awarded any attorneys’ fees and costs incurred in
connection with enforcement of the Arbitration
Award, the Court grants Defendant’s application for
attorneys’ fees and costs.
IV. CONCLUSION
Accordingly, for the reasons set forth above,
Plaintiffs Motion to Vacate the Arbitration Award is
DENIED and Defendant’s Cross-Motion to Confirm
the Arbitration Award is GRANTED. The December
27, 2016 Arbitration Award is CONFIRMED.
Defendant’s application for attorneys’ fees and costs,
as provided in the Arbitration Award is GRANTED.
Finally, to the extent that Plaintiffs “RESPONSE
TO COURT’S MARCH 23, 2017 ORDER & MOTION
FOR STAY PENDING APPEAL” may be construed
as a motion to stay this action or the Arbitration
Award pending appeal, the motion is denied as moot.
An appropriate Order shall issue on this date.
s/Renee Marie Bumb
RENEE MARIE BIIMB
United States District Judge
Dated: April 26. 2017

1

}

-37aAPPENDIX E
[Dkt. Nos. 67 and 73]
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

SARA ANN EDMONDSON,
Civil Action No. 13-7704
(RMB/JS)
Plaintiff,
v.
LELUSTON FORD, INC. et aL,
Defendants.
MEMORANDUM
ORDER
This matter comes before the Court upon
receipt of Plaintiff Sara Ann Edmondson’s “Demand
for District Court Order Granting or Denying Motion
for Summary Judgment Filed September 5, 2015.”
[Docket No. 73]
On June 22, 2015, this Court entered an Order
Compelling Arbitration pursuant to 9 U.S.C. § 4
[Docket No. 61] The Court entered this Order after it
had subject matter jurisdiction. Unfortunately, since
this Court’s Order, the parties have been unable to
agree upon an arbitrator to conduct the arbitration.
On or about July 15, 2015, Plaintiff filed a
demand for arbitration with the American

7

-38aArbitration Association (“AAA”). [Docket No. 67 at
7]. Defendant Lilliston Ford would not agree to
arbitrate before the AAA as it had apparently
severed its ties with the association years ago;
Defendant further disputed that it should advance
the filing fees. [Docket No. 67, at 10]. On August 17,
2015, Defendant provided the names of three
arbitrators to Plaintiff. [Docket No. 70-6]. To date,
Plaintiff Edmondson has not agreed to any of the
three potential arbitrators. The Court conducted
oral argument on this matter on January 27, 2016,
once again to resolve the parties’ obstacles to
arbitration.
The applicable contract between the parties
provides as follows:
The parties to this agreement agree to
arbitrate any claim, dispute, or controversy ...
relating to the sale or lease [of the automobile
in question], ... The arbitration shall be
conducted in accordance with the rules of the
American Arbitration Association before a
single arbitrator, who shall be a retired judge
or an attorney. Dealership shall advance
both party’s filing, service, administration,
arbitrator, hearing, or other fees, subject to
reimbursement by decision of the arbitrator.
Each party shall bear his or her own attorney,
expert, and other fees and costs, except when
awarded by the arbitrator. The arbitration
shall take place in New Jersey ....
[Docket No. 14, Ex. A],

1

-39aThus, it is clear that the arbitrator must be a
retired judge or an attorney who will conduct the
arbitration in accordance with the rules of the
American Arbitration Association and in New Jersey.
The contract does not provide that the American
Arbitration Association must conduct arbitration.
It is clear to the Court that, as of this date, the
parties are unable to agree on the naming of an
arbitrator. In fact, Plaintiff has made it clear that
she “will not adhere to the District Court’s directive”
to select one of the three arbitrators suggested by
Defendant or propose an arbitrator of her own.
[Docket No. 73, at l], 9 U.S.C. § 5 provides^
Appointment of arbitrators of umpire
If in the agreement provision be made for a
method of naming or appointing an arbitrator
or arbitrators or an umpire, such method
shall be followed; but if no method be
provided therein, or if a method be provided
and any party thereto shall fail to avail
himself of such method, or if for anv other
reason there shall be a lapse in the naming of
an arbitrator or arbitrators or umpire, or in
filling a vacancy, then upon the application of
either party to the controversy the court shall
designate and appoint an arbitrator or
arbitrators or umpire, as the case mav
require, who shall act under the said
agreement with the same force and effect as if
he or they had been specifically named
therein! and unless otherwise provided in the

-40aagreement the arbitration shall be by a single
arbitrator.
Accordingly,
IT IS ON THIS life day of February 2016.
hereby ORDERED, as this Court has previously
ordered, that the parties shall agree on the selection
of an arbitrator who is an attorney or retired judge
by March 10, 2016; and
IT IS FURTHER ORDERED that in the event
the parties fail to agree on an arbitrator by that date,
the Plaintiff may move this Court pursuant to 9
U.S.C. § 5 for the appointment of an arbitrator; and
IT IS FURTHER ORDERED that in the event
Plaintiff fails to move for such appointment (again,
in the event parties could not agree on an arbitrator),
the Court will deem Plaintiffs failure to do so as cm
abandonment of her nlaima and the within
Complaint will be dismissed; and
IT IS FURTHER ORDERED that the Clerk of
the Court shall ADMINISTRATIVELY TERMINATE
the pending motion [Docket No. 67]as improperly
filed.
s/Renee Marie Bumh
Renee Marie Bumb
United States District Judge

}

-41aAPPENDIX F
[Dkt. No. 75]
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE

SARA ANN EDMONDSON,
Civil Action No. 13-7704
(RMB/JS)
Plaintiff,
v.

ORDER

LILLISTON FORD, INC. et al„
Defendants.
THIS MATTER conies before the Court upon
the Motion to Disqualify pursuant to 28 U.S.C. §
455(a) and § 455(b)(1) filed by Plaintiff Sara Ann
Edmondson [Docket No. 75].' and the Court having
reviewed the Plaintiffs Motion to Disqualify and the
attached Affidavit; and for the reasons set forth in
the Opinion issued on this date:
IT IS HEREBY, on this &d day ofMaich
2016.
ORDERED that the Plaintiffs Motion to
Disqualify [Docket No. 75] is DENIED; and it is
further

-42aORDERED that the Court also construes the
Motion to Disqualify as a motion for reconsideration
of its February 18, 2016 Order [Docket No. 74] under
Local Rule 7.19i0; and it is further
ORDERED that the Court’s February 18, 2016
Order [Docket No. 74] is VACATED; and it is further
ORDERED that the Defendants shall show
cause in writing on or before March 10, 2016 why the
contract between the parties does not compel the
parties to submit their disputes to arbitration
conducted by the American Arbitration Association
and in accordance with the American Arbitration
Association’s Consumer Arbitration Rules, including
the provisions regarding the costs of arbitration! and
it is further
ORDERED that, in the event the Defendants
fail to do so, or if the Court is not persuaded by the
Defendants’ submission, the Court intends to compel
the parties to arbitrate their disputes in an
arbitration to be administered by the American
Arbitration Association and in accordance with its
Consumer Arbitration Rules. Failure of either party
to comply with this Order or any future orders of this
Court may result in sanctions, as appropriate.

s/Renee Marie Bumb
RENEE MARIE BUMB
UNITED STATES DISTRICT JUDGE

-43aAPPENDIX G
U.S. District Court
District of New Jersey [LIVE]
(Camden)
CIVIL DOCKET FOR CASE#: i:i3 cv07704-RMB-JS
09/03/201
5

67 MOTION for Summary Judgment,

09/03/201
5

Set/Reset Deadlines as to 67
MOTION for Summary Judgment.
Motion set for 10/5/2015 before
Judge Renee Marie Bumb. The
motion will be decided on the
papers. No appearances required
unless notified by the court, (drw)
(Entered: 09/03/2015

09/03/201
5

CLERK’S QUALITY CONTROL
MESSAGE - Please be advised, all
filings are to be filed directly with
the Clerk of Court. Pursuant to
Judge Bumb’s Rules and
Procedures, only courtesy copies
are to be submitted directly to
chambers. This message is for

filed by SARA ANN
EDMONDSON, (drw) (Entered:
09/03/2015)

informational purposes.
09/09/201
5

68 RESPONSE to Opposition of 67

09/18/201
5

69 Letter from SARA ANN
EDMONDSON in response to the
Quality Control Message entered
on 9/3/2015. (drw) (Entered:
09/18/2015)

10/03/201
5

20 BRIEF in Opposition filed by
LILLISTON FORD, INC. re 67
MOTION for Summary Judgment
(Attachments: #1 Certification of
Service, #2 Supplement, #3
Declaration, #4 Certification, #5
Text of Proposed Order, #6
Exhibit) (DECLEMENT, DAVID)
(Entered: 10/03/2015

01/06/201

71 LETTER ORDER Setting ORAL
ARGUMENT re. 67 MOTION for
Summary Judgment for 1/27/16 @
1:30 PM in Camden - Courtroom
3D before Judge Renee Marie
Bumb. Signed by Judge Renee

6

MOTION for Summary Judgment,
filed by SARA ANN
EDMONDSON, (drw) (Entered:
09/09/2015)

Marie Bumb on 1/6/2016. (drw)
(Entered: 01/06/2016)
01/27/201
6

01/29/201
6

02/18/201
6

72 Minute Entry for proceedings held

before Judge Renee Marie Bumb:
Oral Argument held on 1/27/2016.
Plaintiff directed to respond to
Defendants letter of August 17,
2015 proposing three arbitrators
[Docket No. 70'6 Ex. l] or provide
Defendant with list of alternative
arbitrators.(Court Reporter TEd
Formaroli) (arl,) (Entered
01/27/2016)
73 Letter from Sara Ann Edmondson

re 72 Oral Argument hearing held
on 1/27/2016. (TH,)(Entered:
01/29/2016)
74 **VACATED PER 77 ORDER**
ORDER directing the parties to
agree on the selection of an
arbitrator by 3/10/2016, etc!
administratively terminating 67
Motion for Summary Judgment as
improperly filed. Signed by Judge
Renee Marie Bumb on 2/18/2016.
(drw) Modified on 3/3/2016 (js).
(Entered: 02/18/2016)

-44aAPPENDIX H
Roach v. BM Motoring, LLC, 155 A. 3d
985 - NJ Supreme Court 2017 In the event of a "breach of a
material term of an agreement,
the non-breaching party is
relieved of its obligations under
the agreement." Nolan v. Lee Ho.
120 NJ. 465. 472. 577 A.2d 143
(1990). As this Court has
explained, a breach is material if
it "goes to the essence of the
contract." Boss Svs. v. Linden
Dari-Delite. Inc.. 35 N.J. 329.
341. 173 A.2d 258 (1961). To
determine if a breach is material,
we adopt the flexible criteria set
forth in Section 241 of the
Restatement
(Second)
of
Contracts (1981) (Restatement
(Second)) M Thus, we must
consider:
*992 (a) the extent to which the
injured party will be deprived of

the benefit which he reasonably
expected;
(b) the extent to which the
injured party can be adequately
compensated for the part of that
benefit of which he will be
deprived!
(c) the extent to which the party
failing to perform or to offer toperform will suffer forfeiture;
(d) the likelihood that the party
failing to perform or to offer to
perform will cure his failure,
taking account of all the
circumstances including any
reasonable assurances; [and]
(e) the extent to which the
behavior of the party failing to
perform or to offer to perform
comports with standards of good
faith and fair dealing.
[Restatement (Second), supra, §
241.]
Subsection (e) implicates the
duty of good faith and fair

-45a11 contracts impose
dealing that a
Wilson__
on their parties.
2001

{Zrl § 205).
which
party
the effect of destroying
will have
rins the right of the other
or injuto receive the fruits of the
party to
f rhnnderUM&
contract."’ onso -|/i« NJ.
r Rnrden^Il
AJ2d__Jil& 1997
420 690Palmde&xms. 7nc._&
(quoting
RrnnettLJA ATJ 117^00^^
t. 2d 522-1190^-

0“ "tol^the^e
Sel "Plain and ordinary
7Q4 A.2cL141. J
a provision is
the meaning
gbould
he
ambiguous,
defendants as
construed a§ains d £
in this
the agreements dia
case

-47aWe must next determine
whether
defendants'
prelitigation conduct constituted
a material breach of the DRA. As
we do so, we keep in mind the
Second Restatement's "flexible
criteria" for assessing a material
breach, Neptune Research &
Dev.. Inc, v. Teknics Indus. Svs..
Tnn.. 235 N.J.Suner. 522. 532.
563 A.2d 465 (Aon. Div. 1989).
and recognize that defendants'
material breach would relieve
plaintiffs of their obligations
under the DRA, Nolan, supra.
120 N.J. at 472. 577 A.2d 143.
The benefit expected under an
arbitration agreement is the
ability to arbitrate *995claims. A
failure to advance required fees
that results in the dismissal of
the arbitration claim deprives a
party of the benefit of the
Therefore,
the
agreement,
failure to advance fees "goes to
the essence" of the DRA and
amounts to a material breach.
Ross Svs.. supra. 35 N.J. at 341.

173 A.2d 258; Restatement
(Second), supra, § 241(a).
Additionally, defendants owed
plaintiffs a duty of good faith and
fair dealing. See Wilson, supra.
168 N.J. at 245. 773 A.2d 1121;
Restatement (Second), supra, §
241(e). That is, by entering into
the
DRA, they implicitly
covenanted to do nothing "which
[would] have the effect of
destroying or injuring the right
of [plaintiffs] to receive the fruits
of the [DRA]." Wilson, sunra. 168
NJ.
at
245.
773
A.2d
112l(quoting Sons of Thunder.
Inc., sunra. 148 N.J. at 421. 690
A.2d 575).
There is no dispute that
defendants failed to advance
filing fees after Jackson filed her
arbitration claim with the AAA
and failed to otherwise engage in
arbitration after the AAA
refused to arbitrate Roach's
claim due to defendants' prior
actions.

-49aThus, we hold that defendants'
knowing refusal to cooperate
with
plaintiffs'
arbitration
demands, filed in reasonable
compliance with the parties'
agreement, amounts to a
material breach of the DRA.

»

«

-50aAPPENDIX I
AGREEMENT TO ARBITRATE ANY
CLAIMS. READ THE FOLLOWING
ARBITRATION
PROVISION
CAREFULLY, IT LIMITS YOUR
RIGHTS, INCLUDING THE RIGHT
TO MAINTAIN A COURT ACTION.
The parties to this agreement agree to
arbitrate any claim, dispute, or
controversy, including all statutory
claims and any state or federal claims,
that may arise out of or relating to the
sale or lease identified in this
agreement. By agreeing to arbitration,
the parties understand and agree that
they are waiving their rights to
maintain other available resolution
processes, such as a court action or
administrative proceeding, to settle
their disputes. Consumer Fraud, Used
Car Lemon Law, and Truth-in-Lending
claims are just three examples of the

*
■

-51avarious types of claims subject to
arbitration under this agreement. The
parties also agree to (i) waive any right
to pursue any claims arising under this
agreement including statutory, state or
federal claims, as a class action
arbitration, or (ii) to have an
arbitration under this agreement
consolidated with any other arbitration
or proceeding. The arbitration shall be
conducted in accordance with the rules
of
the
American
Arbitration
Association before a single arbitrator,
who shall be a retired judge or an
attorney. Dealership shall advance
both
party’s
filing,
service,
administration, arbitrator, hearing, or
other fees, subject to reimbursement by
decision of the arbitrator. Each party
shall bear his or her own attorney,
expert, and other fees and costs, except
when awarded by the arbitrator under
applicable law. The arbitration shall
take place in New Jersey at a
-49a-

*

-52amutually convenient place agreed upon
by the parties or selected by the
arbitrator.
The decision of the
arbitrator shall be binding upon the
parties. Any further relief sought by
either party will be subject to the
decision of the arbitrator. If any part of
this arbitration clause, other than
waivers of class action rights, is found
to be unenforceable for any reason, the
remaining provisions shall remain
enforceable. If a waiver of class action
and consolidation rights is found
unenforceable in any action in which
class action remedies have been sought,
this entire arbitration clause shall be
deemed unenforceable, it being the
intention and agreement of the parties
not to arbitrate class actions or in
consolidated proceedings. In the event
that any subsequent lease, finance, or
other agreement between the parties
contains a provision for arbitration of
claims which conflicts with or is
inconsistent with this arbitration

■53a-

*

i?

:

provision, the terms of such subsequent
arbitration provision shall govern and
control to the extent of such conflict or
inconsistency. THIS ARBITRATION
PROVISION LIMITS YOUR RIGHTS,
INCLUDING i YOUR RIGHT TO
MAINTAIN A COURT ACTION.
PLEASE READ IT CAREFULLY,
PRIOR TO SIGNING.

fi
•r
*

-59admdeclement@aol.com>
dmdeclement@aol.com
Sat, Aug 8, 2015 at 11.31 AM
Envolvement
To:
Totall
.totallenvolvementinc@gmail.com>
Cc:
Consumer
Case
Filing
Team
<ConsumerFiling@adr.org>.
John
Lilliston
<irl@lilliston.com>.
“stacev@lilliston.com”
<st.ace v@lilliston.com>.
Lilliston
Brent
<brent@lilliston.com>.
Tracee
Edmondson
<tigastrav@hotmail .com>
The position of Lillisron Ford remains as in the last
correspondence of counsel. Lilliston will supply three
candidates for mediation. Ms Edmondson will share
equally in the cost as per the Courts Ruling. AAA is
not a candidate as a mediation host.
David M DeClement

No,

iif

*!

______
In the ____________
SUPREME COURT OF THE UNTIED STATES
Sara Ann Edmondson,

'w.

Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners, officers,
directors, founders, managers, agents, servents, employees, representatives and/or
independent contractors of LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
I, Sara Ann Edmondson, certify that on September
., 20191 served three (3) copies
of the Petition for a Writ of Certiorari via regular mail to Respondents at:
Lilliston Ford Inc.
833 N. Delsea Drive
Vineland, NJ 08360

4
&

k

ANN EDMONDSON, Pro Se
71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

No..

>

In the
_______
SUPREME COURT OF THE UNITED STATES

\
i

*
*

Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners, officers,
directors, founders, managers, agents, servents, employees, representatives and/or
independent contractors of LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

CERTIFICATE OF WORD COUNT
I certify that the word count of this Petition for a Writ of Certiorari complies with the
rules at 3407.

>N, ProSe

i
%
a

71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

